Report No. DODIG-2013-005                October 23, 2012




    Performance Framework and Better Management of
       Resources Needed for the Ministry of Defense
                   Advisors Program
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
CEW                           Civilian Expeditionary Workforce
DCOM-A                        Deputy Commander-Army
DCOM-P                        Deputy Commander-Police
MoDA                          Ministry of Defense Advisors
                                      INSPECTOR GENERAL
                                       DEPARTMENT OF DEFENSE
                                       4800 MARK CENTER DRIVE
                                    ALEXANDRIA, VIRGINIA 22350-1500


                                                                                       October 23, 2012


MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF DEFENSE FOR
                 PARTNERSHIP STRATEGY AND STABILITY OPERATIONS
               COMMANDER, U.S. COMBINED SECURITY TRANSITION
                 COMMAND-AFGHANISTAN

SUBJECT: Performance Framework and Better Management of Resources Needed
         for the Ministry of Defense Advisors Program
         (Report No. DODIG-2013-005)

We are providing this report for review and comment. In 2009, DoD developed the Ministry of
Defense Advisors (MoDA) pilot program to support a pool of civilians capable of building
ministerial capacity in Afghanistan. However, MoDA program officials did not establish a
performance management framework to include goals, objectives, and performance indicators
necessary for assessing the effectiveness of the program. Additionally, North Atlantic Treaty
Organization Training Mission-Afghanistan/U.S. Combined Security Transition Command-
Afghanistan officials did not use all DoD civilians as advisors with Afghan ministry officials. We
considered comments on the draft report when preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. Comments from
the Deputy Assistant Secretary of Defense for Partnership Strategy and Stability Operations
conformed to the requirements of DoD Directive 7650.3 and left no unresolved issues. However,
comments from the Commander, U.S. Combined Security Transition Command-Afghanistan were
only partially responsive. Therefore, we request additional comments on Recommendation B.1 by
November 22, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audjsao@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over the
SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                             Amy J. Frontz
                                             Principal Assistant Inspector General
                                               for Auditing

cc:
Under Secretary of Defense (Policy)
    Assistant Secretary of Defense for Special Operations and Low Intensity Conflict
Commander, U.S. Central Command
    Commander, U.S. Forces-Afghanistan
Auditor General, Department of the Army
Report No. DODIG-2013-005 (Project No. D2012-D000JB-0093)                            October 23, 2012


               Results in Brief: Performance Framework
               and Better Management of Resources
               Needed for the Ministry of Defense
               Advisors Program
What We Did                                               building ministerial capacity or hold individuals
In 2009, DoD developed the Ministry of Defense            accountable for achieving program results.
Advisors (MoDA) pilot program to support a pool           In addition, Command officials may not have
of civilians capable of building ministerial              effectively and efficiently managed MoDA
capacity in Afghanistan. Our audit objective was          resources. Specifically, officials were unable to
to determine whether the program met its intended         justify the need for all 97 authorized MoDA
purpose. Specifically, we determined whether              positions and placed 5 of 28 MoDAs interviewed
MoDA program goals, objectives, and resources             into nonadvisory positions with Afghan officials.
were managed effectively and efficiently.                 This occurred because Command officials did not
                                                          develop criteria to identify and validate MoDA
What We Found                                             positions. As a result, MoDAs may be unable to
MoDA program officials did not establish a                fully exchange expertise and build long-term
performance management framework to include               relationships with Afghan ministry officials.
goals, objectives, and performance indicators to
assess progress and measure program results.              What We Recommend
Instead, program officials relied on North Atlantic       Among other recommendations, the Deputy
Treaty Organization Training Mission-                     Assistant Secretary of Defense for Partnership
Afghanistan/U.S. Combined Security Transition             Strategy and Stability Operations and Command
Command-Afghanistan [the Command] officials               officials should work together to establish a
to determine whether MoDAs were effectively               performance management framework and
building ministerial capacity in the Afghanistan          cooperative agreement and develop and
Ministry of Defense and Ministry of Interior.             implement criteria to identify and validate MoDA
Also, program officials did not establish goals and       positions.
objectives to determine whether an adequate
number of MoDA positions were filled in a timely          Management Comments and
manner.
                                                          Our Response
This occurred because program and Command                 Comments from the Deputy Assistant Secretary of
officials did not establish a cooperative agreement       Defense for Partnership Strategy and Stability
to identify roles and responsibilities and                Operations were responsive and no additional
communicate and share information. Other                  comments are necessary. However, comments
contributing factors cited by program officials           from the Commander, Combined Security
included an absence of DoD guidance on building           Transition Command-Afghanistan were partially
ministerial capacity and the tentative nature of a        responsive and additional comments are required.
pilot program creating uncertainty of its future.         Please see the recommendations table on the back
Without a framework, program officials cannot             of this page.
fully assess the effectiveness of the program in



                                                      i
Report No. DODIG-2013-005 (Project No. D2012-D000JB-0093)        October 23, 2012

Recommendations Table
         Management                   Recommendations       No Additional Comments
                                     Requiring Comment               Required
Deputy Assistant Secretary of                               A.1, A.2
Defense for Partnership Strategy
and Stability Operations

Commander, U.S. Combined           B.1                      A.2, B.2.a-b
Security Transition Command-
Afghanistan

Please provide comments by November 22, 2012




                                         ii
Table of Contents
Introduction                                                                  1
      Objectives                                                              1
      Background                                                              1
      Review of Internal Controls                                             2

Finding A. Performance Management Framework Needed for Assessing
the Effectiveness of the Ministry of Defense Advisors (MoDA) Program          4
      Elements of a Performance Management Framework                          4
      Goals, Objectives, and Performance Indicators Need to Be Established    5
      Cooperative Agreement Needed Between Program and
             Command Officials                                                7
      Program Officials Also Cited External Factors as Challenges to
             Developing a Framework                                           8
      Framework Needed to Fully Assess Program Effectiveness in
             Building Ministerial Capacity                                    8
      Management Comments on the Finding and Our Response                     9
      Recommendations, Management Comments, and Our Response                 10

Finding B. Better Management of MoDA Resources Needed                        13
      Command Process to Review Positions and Place MoDAs                    13
      Command Unable to Justify Number of Positions                          13
      MoDAs Not Placed Into Advisory Positions                               14
      Criteria Needed to Identify and Validate MoDA Positions
              or Program Benefits May Not Be Fully Realized                  14
      Recommendations, Management Comments, and Our Response                 15

Appendix
      Scope and Methodology                                                  18
             Use of Computer Processed Data                                  19
             Prior Coverage                                                  19

Management Comments
      Deputy Assistant Secretary of Defense for Partnership Strategy
             and Stability Operations                                        20
      U.S. Combined Security Transition Command-Afghanistan                  23
Introduction
Objectives
Our objective was to determine whether the Ministry of Defense Advisors (MoDA)
program met its intended purpose. Specifically, we determined whether the program’s
goals, objectives, and resources were managed effectively and efficiently. This report is
one in a series of reports on the MoDA program. An additional report will address
whether MoDA program officials have adequate controls over the distribution of funds to
other DoD agencies. See the appendix for a discussion of the audit scope and
methodology and prior audit coverage related to the audit objective.

Background
In 2008, senior DoD officials identified a need to develop an internal DoD capacity that
provided institutional, ministerial training and advisory support to our partner nations. 1
In anticipation of the growing importance of capacity building, DoD officials developed
two complementary pilot programs: the Defense Institution Reform Initiative and MoDA.
DoD officials developed the MoDA pilot program to support a pool of civilians capable
of building ministerial capacity in Afghanistan. Additional reports will discuss the
Defense Institution Reform Initiative program.

MoDA Program
In 2009, DoD officials designed the MoDA program to forge long-term relationships
with a partner nation’s ministry of defense by matching senior civilians to
partner-identified requirements. DoD civilians can forge long-term relationships under
the auspices of the Civilian Expeditionary Workforce (CEW), which allows civilians to
deploy for up to 2 years. 2 The MoDA program also provides temporary backfill funding
to the civilian’s parent organization 3 to hire temporary replacements.

The MoDA program offers three courses per year, providing civilians with 7 weeks of
extensive training. During the course, civilians receive extensive training in an
operational environment and obtain instruction on culture, language, advisory skills,
personal security, and civilian-military coordination. From FY 2010 to July 2012, DoD
officials reported expending about $18.8 million on training, backfill, and other MoDA
program-related costs for five MoDA classes.



1
  Institutional capacity is the ability to provide security forces with pay, benefits, and equipment, while
ministerial capacity is the ability to conduct activities, such as personnel and readiness, acquisition and
logistics, and financial management.
2
  The CEW is a subset of DoD civilians organized, ready, trained, cleared, and equipped in a manner that
enhances their availability to mobilize and respond urgently to requirements.
3
  For this report, we refer to “DoD parent organization” as the organization that employs the civilian
volunteer.



                                                      1
On December 31, 2011, DoD officials received congressional authority through
Public Law 112-81, “Nation Defense Authorization Act of FY 2012,” section 1081,
“Authority for Assignment of Civilian Employees of the Department of Defense as
Advisors to Foreign Ministries of Defense,” to establish a formal program that deploys
advisors to other partner nations. Through this authority, Congress required DoD to
submit an annual report and the Comptroller General to report on the effectiveness of the
program no later than December 30, 2013.

Roles and Responsibilities
Within the Office of the Under Secretary of Defense (Policy), the Assistant Secretary of
Defense for Special Operations and Low Intensity Conflict, is responsible for providing
policy guidance on foreign defense institution building. 4 Within the Office of the
Assistant Secretary of Defense, the Deputy Assistant Secretary of Defense Partnership
Strategy and Stability Operations is responsible for overseeing the development of DoD
institution building capabilities, to include the MoDA program. Within this office,
MoDA program officials are responsible for recruiting, hiring, training, and deploying
civilians to Afghanistan. As of March 2012, MoDA program officials deployed
83 civilians. Once deployed, civilians work under the direction of the Commander, North
Atlantic Treaty Organization Training Mission-Afghanistan/U.S. Combined Security
Transition Command-Afghanistan [the Command] and advise officials in both the
Afghanistan Ministries of Defense and Interior.

The Commander, North Atlantic Treaty Organization Training Mission-Afghanistan/U.S.
Combined Security Transition Command-Afghanistan, is responsible for overseeing the
Afghan ministerial development and advisory mission. 5 Within the Command, the
Deputy Commander-Army (DCOM-A) is responsible for the Afghanistan Ministry of
Defense and the Deputy Commander-Police (DCOM-P) is responsible for the
Afghanistan Ministry of Interior. DCOM-A and DCOM-P officials developed ministerial
development plans, which officials stated outline what each ministerial office should
accomplish to be considered sustainable and ready to transition from a U.S. to an Afghan-
led effort.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the efficiency and effectiveness of the controls. We determined
that MoDA program officials did not establish a cooperative agreement to identify roles
and responsibilities and communicate and share information. We also determined



4
  Defense Institution Building is a DoD activity that supports the establishment, strengthening, and building
of effective, efficient, and accountable national defense institutions within a foreign government.
5
  Military officers, contractors, and DoD civilians conduct the Afghanistan ministerial advising and training
mission.


                                                     2
Command officials did not develop and implement written criteria to effectively identify,
justify, and validate MoDA positions. We will provide a copy of the report to senior
officials responsible for internal controls at the office of the Deputy Assistant Secretary
of Defense Partnership Strategy and Stability Operations and U.S. Combined Security
Transition Command-Afghanistan.




                                             3
Finding A. Performance Management
Framework Needed for Assessing the
Effectiveness of the MoDA Program
MoDA program officials did not establish a performance management framework to
include goals, objectives, and performance indicators. Specifically, program officials
relied on North Atlantic Treaty Organization Training Mission-Afghanistan/U.S.
Combined Security Transition Command-Afghanistan [the Command] officials to
establish goals and objectives necessary for determining whether MoDAs were advising
Afghan counterparts in an effort to effectively build ministerial capacity. Also, program
officials did not establish goals and objectives to determine whether an adequate number
of MoDA positions were filled in a timely manner. In addition, program officials did not
establish performance indicators to assess progress and measure program results.

This occurred because program and Command officials did not establish a cooperative
agreement to identify roles and responsibilities and communicate and share information.
MoDA program officials also cited other factors that impeded their ability to develop a
performance management framework. These factors included the tentative nature of a
pilot program creating uncertainty of the program’s future and an absence of DoD
guidance for building ministerial capacity. As a result, program officials cannot fully
assess the effectiveness of the program in building ministerial capacity in Afghanistan or
hold individuals accountable for achieving program results. In addition, program
officials may be missing opportunities to improve the program, increase cost
effectiveness, or reduce the risk of MoDAs not being used as intended.

Elements of a Performance Management Framework
A performance management framework includes goals, objectives, and performance
indicators. Goals define the expected performance level that entities can compare against
the actual performance level while objectives are milestones to achieving a program’s
goals. Performance indicators are values or characteristics used to assess or measure
progress and program results over a specified time frame. Collectively, a performance
management framework helps to improve decisionmaking by providing comparative data
to assess progress toward achieving goals and objectives, measure cost effectiveness, and
reduce risks. A performance management framework also provides a means to hold
entities accountable for achieving program results.

As an entity develops a performance management framework, stakeholders should be
consulted to identify and assess both the environment in which the program operates and
external factors that could affect their ability to accomplish the goals and objectives.
Both entities should also have a basic understanding of competing demands, limited
resources, and how those demands and resources require careful continuous balancing.




                                            4
Goals, Objectives, and Performance Indicators Need to
Be Established
MoDA program officials did not establish a performance management framework to
include goals, objectives, and performance indicators. Although program officials did
not establish a performance management framework, officials stated the pilot program
had two goals: ensure MoDAs were advising Afghan counterparts in an effort to build
ministerial capacity and fill Command positions with qualified individuals in a timely
manner.

Goals and Objectives Needed to Determine Whether MoDAs
Were Effectively Building Ministerial Capacity
Program officials relied on Command officials to establish goals and objectives to
determine whether MoDAs were advising Afghan counterparts in an effort to effectively
build ministerial capacity. Specifically, program officials stated the Command had
overall responsibility for the Afghan ministerial development and advising mission for
the Afghan Ministries of Defense and Interior. Program officials further stated that
MoDAs report directly to Command officials when performing day-to-day operations;
                                              therefore, program officials had limited
    Without insight into the operational      insight into the effectiveness of MoDA
     environment and external factors         advisory efforts. While building ministerial
      contributing to MoDA advisory           capacity in Afghanistan is part of the
   efforts, program officials will not be     Command’s mission, Deputy Assistant
    able to determine if the program is       Secretary of Defense Partnership Strategy and
       meeting its intended purpose.          Stability Operations is responsible for
                                              overseeing the development of all DoD
institution building capabilities, to include management oversight of the MoDA program.
Without insight into the operational environment and external factors contributing to
MoDA advisory efforts, program officials will not be able to determine if the program is
meeting its intended purpose.

Program officials should coordinate with Command officials to develop goals and
objectives necessary to assess the effectiveness of MoDAs in advising their Afghan
counterparts to build ministerial capacity and consider environmental and external factors
that could affect their ability to meet those goals and objectives.

Goals and Objectives Needed to Determine Whether Positions
Were Adequately Filled in a Timely Manner
Program officials did not establish goals and objectives to determine if they filled an
adequate number of MoDA positions in a timely manner. Specifically, program officials
did not establish an expected level of performance for filling positions. Of the five
MoDA classes, program officials averaged filling less than half of the Command
requested positions. See the table on page 6 which shows that a low percentage of
MoDA positions were filled through five hiring classes, as of April 2012.




                                             5
        Table. Percentage of Command Requested Positions Filled by Class
                    Command                                     Percent of
                Requested Positions  MoDAs Deployed           Positions Filled
    Class I             20                  17                       85
   Class II             30                  16                       53
   Class III            51                  25                       49
   Class IV             51                  17                       33
   Class V              31                   8                       26
    Total              183                  83                       45


Program officials stated the average percentage of positions offered to applicants was
much higher. However, the percentage of positions filled was lower because of external
factors, such as Command officials changing requirements or applicants being medically
disqualified, withdrawing for personal reasons, or accepting other employment
opportunities. Program officials attributed the difference to challenges associated with
deploying an all-volunteer civilian workforce.

Program officials also did not establish an expected level of performance for filling
MoDAs positions in a timely manner. For example, program officials had a 6 to 8-month
lead time from receipt of the Command requested position to deployment for MoDA
classes I through V. While MoDA program officials stated an 8-month lead time could
be established as a program standard, Command officials stated the process to fill a
MoDA position is too lengthy. Specifically, Command officials stated the type of MoDA
positions can change frequently in a contingency environment while waiting for program
officials to fill MoDA positions. This factor can lead to MoDAs being reassigned to
another position once deployed because the position they were hired for no longer exists.

Program officials should coordinate with Command officials to develop goals and
objectives for adequately filling Command positions in a timely manner and consider
environmental and external factors that could affect their ability to meet those goals and
objectives.

Performance Indicators Needed to Assess and Measure
Progress and Outcomes
MoDA program officials did not establish performance indicators to assess and measure
progress and program results. Specifically, program officials did not establish
performance indicators, such as the number of hours MoDAs spent advising Afghan
counterparts to assess progress toward building ministerial capacity. While program
officials began collecting data on the number of hours MoDAs spent advising their
Afghan counterparts in November 2011, the monthly reports were not mandatory and,
therefore, not all MoDAs provided reports. For example, program officials received
monthly reports from 30 of the 57 deployed MoDAs in January 2012.


                                             6
Program officials also did not establish performance indicators, such as total personnel
   While program officials are not responsible costs to measure the cost effectiveness
        for funding Schedule A personnel,           of the program. Specifically, program
        providing all relevant cost data is         officials provided personnel costs for
   necessary to assess the cost effectiveness of    MoDAs hired and funded through the
   the program over a specified time frame to       program; however, program officials
             make informed decisions.               did not provide personnel costs for
                                                    MoDAs funded through U.S. Army
Central Command. From FY 2010 through July 2012, program officials reported
expending about $18.8 million for training, premium pay, backfill, and other
program-related costs. However, program officials did not consider external factors, such
as the estimated costs of $13.9 million for MoDAs hired and funded through the
U.S. Army Central Command Schedule A program. 6 While program officials are not
responsible for funding Schedule A personnel, providing all relevant cost data is
necessary to assess the cost effectiveness of the program over a specified time frame to
make informed decisions.

Program officials should coordinate with Command officials to establish performance
indicators, such as the number of hours advising and total program costs, to assess and
measure progress and program results.

Cooperative Agreement Needed Between Program and
Command Officials
MoDA program and Command officials did not establish an agreement to identify
applicable roles and responsibilities and ensure cooperation. Before November 2011,
both program officials and MoDAs reported communication and information sharing
challenges with Command officials. Specifically, Command officials required MoDAs to
obtain approval before sharing information on advisory efforts with program officials.
This requirement often limited the type and amount of information program officials
could receive on MoDAs advisory efforts.

In November 2011, communication and information sharing between program and
Command officials improved through conducting biweekly meetings and receiving
monthly reports. During biweekly meetings, Command officials stated they coordinated
with program officials to plan for upcoming recruiting and hiring efforts and resolve
administrative issues. Program officials also received MoDA monthly reports, which
included information on the individual’s position, number of hours spent advising Afghan
counterparts, and significant achievements.




6
 Through the Schedule A program, U.S. Army Central Command officials hire retired annuitants and
non-DoD employees to deploy in support of the MoDA program. U.S. Army Central Command personnel
estimated costs from FY10 through April 2012.



                                               7
While the voluntary monthly reports provide program officials with some visibility into
advisory efforts, program officials were unable to take action when MoDAs are not
advising. For example, in January 2012, program officials identified two advisors not
having an Afghan counterpart assigned and another with no contact with ministry
officials. Program officials stated they did not communicate their concerns with
Command officials over the use of MoDAs because MoDAs are under the operational
control of the Command. While MoDAs are under the operational control of the
Command once deployed, program officials should have a mechanism in place to
communicate those concerns. The overall success of the MoDA program is dependent
upon both program and Command officials communicating and sharing information on
advisory efforts to build ministerial capacity and the most effective use of MoDA
resources. Without a formal agreement to hold both program and Command officials
accountable for ensuring cooperation, DoD is at an increased risk that the MoDA
program may not be effective.

Program and Command officials should establish a formal agreement establishing roles
and responsibilities to hold individuals accountable for communicating and sharing
information to include the type of information, mechanism, and time frame for reporting.

Program Officials Also Cited External Factors as
Challenges to Developing a Framework
MoDA program officials cited other external factors that impeded their ability to develop
a performance management framework. These external factors included the tentative
nature of a pilot program creating uncertainty of the program’s future and the absence of
DoD guidance on building ministerial capacity.

Program officials cited uncertainty of the pilot program’s future as a factor in developing
a performance management framework. Specifically, program officials were uncertain
whether Congress would provide permanent authority for the program. On December 31,
2011, Congress granted approval through Public Law 112-81 for DoD to establish the
MoDA program globally in support of building foreign defense ministries. However, this
authority expires on September 30, 2014.

DoD also did not establish formal policy and procedures for building ministerial capacity.
As of June 2012, officials from the Office of the Under Secretary of Defense for Policy
were drafting policy for developing and maintaining DoD capabilities to assess, support,
develop, and advise partner nations. Once finalized, officials stated they also plan to
develop implementation guidance. Our report on the Defense Institution Reform
Initiative will address the recommendation for DoD officials to establish policy and
procedures.

Framework Needed to Fully Assess Program
Effectiveness in Building Ministerial Capacity
Without a performance management framework, program officials cannot fully assess the
effectiveness of the MoDA program in building ministerial capacity or hold individuals

                                            8
accountable for achieving program results. Program officials may also be missing
opportunities to improve program results, increase cost effectiveness, or reduce the risk
of the Command not using MoDAs as intended. For example, program officials could
improve program results by filling MoDA positions in an efficient manner and reducing
the risk that a loss in continuity or ineffective transition may occur among MoDAs
working to build ministerial capacity. MoDA program officials could also improve
decisionmaking by obtaining total program costs and identifying ways to increase the
cost effectiveness of the program.

Management Comments on the Finding and
Our Response
Deputy Assistant Secretary of Defense for Partnership Strategy
and Stability Operations Comments
The Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations stated the findings and recommendations will be very useful to his office, the
Command, and the Defense Security Cooperation Agency when developing new methods
to improve support for the MoDA program in Afghanistan.

The Deputy Assistant Secretary of Defense highlighted several observations in the report
including the MoDA program being launched as a pilot program in 2010 and the
“supply” and “demand” division of his labor between his office and the Command.
While he considered those observations to be correctly noted, the Deputy Assistant
Secretary of Defense stated the report understated the quality of that arrangement in
terms of program management duties. Specifically, the Command, responsible for
overseeing the ministerial development and advising mission in Afghanistan, is in the
best position to establish MoDA program goals and objectives related to advising
activities and the Command implemented a framework through the ministerial
development board assessment process. The MoDA program office does not validate
Command advisor requirements nor do they oversee the advisors day-to-day work.
Instead, their primary objective is to fill every Command required position by training
and deploying advisors and providing administrative support to those advisors once
deployed. For these reasons, the Deputy Assistant Secretary of Defense did not develop a
separate framework to determine whether the MoDAs are effectively building ministerial
capacity.

The Deputy Assistant Secretary of Defense also stated the report understates the external
challenges associated with deploying volunteer civilian advisors and how those
challenges impede fill rates for MoDA positions. He further stated the 6 to 8 month
recruiting-to-deployment timeline cannot be curtailed unless essential training
requirements are scaled back. However, the Deputy Assistant Secretary of Defense
stated the MoDA program office will work closely with Defense Security Cooperation
Agency, which will assume program management responsibilities for MoDA in FY 2013,
and the Command on developing new ways to measure advisor recruiting, training, and
deployment performance.



                                            9
Our Response
We disagree with the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations comments that the Command is in the best position to develop a
performance management framework and assess whether MoDAs are effectively building
ministerial capacity. While the Command has developed a ministerial development
board assessment process, the process is intended to measure the ability of offices within
the Afghanistan Ministry of Defense and Ministry of Interior to function independently of
coalition support. We agree the ministerial development board assessment process can
provide insight into the effectiveness of the Command’s overall advising effort; however,
MoDAs are only a portion of the Commands overall advising efforts. Therefore, the
process may not provide the necessary data to assess the effectiveness of the MoDA
program in building institutional capacity.

As stated on report page five, we agree program officials are not responsible for the
day-to-day operations of deployed MoDAs. However, as stated on report page two,
the Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations is responsible for overseeing the development of all DoD institution building
capabilities including management oversight of the MoDA program. While the
Command is responsible for building institutional capacity in Afghanistan, program
officials and the entity responsible for overseeing the MoDA program should assess
MoDAs and the effectiveness of the program to build institutional capacity.

We disagree with the Deputy Assistant Secretary of Defenses’ comments that the report
understates the external challenges associated with deploying volunteer civilian advisors.
On report page six, we acknowledge external challenges that could impede fill rates for
MoDA positions. Those external factors include Command officials changing
requirements or applicants being medically disqualified, withdrawing for personal
reasons, or accepting other employment opportunities.

We also disagree with the Deputy Assistant Secretary of Defense comments that the 6 to
8 month recruiting-to-deployment timeline cannot be curtailed unless essential training
requirements are scaled back. MoDA program officials deploy DoD civilians under the
auspice of CEW, which allows for a subset of DoD civilians to be organized, trained, and
equipped in a manner that enhances their ability to mobilize and respond urgently to
operational requirements. MoDA program officials could work with Command officials
to identify positions, in advance, for advisors due to redeploy, which could reduce the
amount of time required from recruiting to deployment and would not impact essential
training requirements.

Recommendations, Management Comments, and
Our Response
A.1. We recommend the Deputy Assistant Secretary of Defense for Partnership
Strategy and Stability Operations, in coordination with the Commander, U.S.
Combined Security Transition Command-Afghanistan, develop a performance
management framework to include goals, objectives, and performance indicators to

                                            10
assess progress and measure program results. The performance management
framework should also consider environmental and external factors that could
affect the goals and objectives from being accomplished.

Deputy Assistant Secretary of Defense for Partnership Strategy
and Stability Operations Comments
The Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations, partially agreed with the recommendation. He stated the MoDA program is
currently managed in his office; however, management of the program will transfer to
Defense Security Cooperation Agency in FY 2013. Further, the Deputy Assistant
Secretary of Defense stated his office, the Command, and Defense Security Cooperation
Agency are working on a performance management framework to cover MoDA program
office responsibilities, including advisor recruiting, training, and deployment
performance indicators. In addition, the Deputy Assistant Secretary of Defense and the
Defense Security Cooperation Agency will coordinate with the Command to connect the
aforementioned performance management framework with the Command’s broader
ministerial development assessment framework.

Our Response
Comments from the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations were responsive and met the intent of the recommendation. No
further comments are required. A performance management framework established by
the Deputy Assistant Secretary of Defense, in coordination with Defense Security
Cooperation Agency and the Command, should assist MoDA program officials in gaining
insight into the effectiveness of advisor efforts to build institutional capacity in
Afghanistan. Also, the Deputy Assistant Secretary of Defense should ensure the
performance management framework includes performance indicators to assess progress,
measure program results and consider environmental and external factors.

A.2. We recommend the Deputy Assistant Secretary of Defense for Partnership
Strategy and Stability Operations and the Commander, U.S. Combined Security
Transition Command-Afghanistan, establish a cooperative agreement that identifies
roles and responsibilities to hold individuals accountable for communicating and
sharing information to include the type of information, mechanism, and time frame
for reporting.

Deputy Assistant Secretary of Defense for Partnership Strategy
and Stability Operations Comments
The Deputy Assistant Secretary of Defense for Partnership Strategy and Stability
Operations, agreed with the recommendations. Specifically, he stated the Defense
Security Cooperation Agency, in preparation for taking over management responsibilities
for the MoDA program on October 1, 2012, had already started coordination on a
memorandum of agreement with the Command to establish roles, responsibilities, and
lines of communication.




                                          11
U.S. Combined Security Transition Command-Afghanistan
Comments
The Commander, U.S. Combined Security Transition Command-Afghanistan, agreed
with the recommendation. He indicated the MoDA program will transfer from the Office
of the Under Secretary of Defense for Policy Partnership Strategy and Stability
Operations to the Defense Security Cooperation Agency in FY 2013. He stated the
Defense Security Cooperation Agency drafted a memorandum of agreement that provides
a framework for Defense Security Cooperation Agency and the Command to coordinate
and manage the MoDA program. The memorandum of agreement identifies both
Defense Security Cooperation Agency’s and the Command’s roles and responsibilities
for managing the MoDA program. The memorandum of agreement also addresses the
requirement to collectively establish performance objectives for advisors and the
Command to provide documentation on feedback sessions with MoDAs. According to
the Commander, the agreement addresses the requirements and validation process and
establishes timelines for the Command to submit MoDA requirements to the program
office. He further stated the agreement identifies five ways for carrying out coordination
between the MoDA program office and Command. The Commander stated that on
July 29, 2012, the Command agreed with the draft memorandum of agreement and is
awaiting the final signed copy.

Our Response
Comments from the Deputy Assistant Secretary of Defense for Partnership Strategy and
Stability Operations and the Commander U.S. Combined Security Transition Command-
Afghanistan were responsive and no additional comments are required.




                                           12
Finding B. Better Management of MoDA
Resources Needed
North Atlantic Treaty Organization Training Mission-Afghanistan/U.S. Combined
Security Transition Command-Afghanistan [the Command] officials may not have
effectively and efficiently managed MoDA resources. Specifically, Command officials
were unable to provide justification for all 97 authorized MoDA positions. In addition,
officials placed 5 of 28 MoDAs we interviewed, into nonadvisory positions with Afghan
ministry officials. This occurred because Command officials did not develop and
implement written criteria to identify new and validate existing MoDA positions, such as
the amount of time spent advising, the position of the Afghan ministry official, and the
length of tour required to build long-term relationships. As a result, Command officials
may not fully realize some of the intended benefits of the MoDA program. Specifically,
MoDAs may not be able to fully exchange expertise and build long-term relationships
with Afghan officials to improve ministerial capacity.

Command Process to Review Positions and
Place MoDAs
Before each MoDA class, Command officials issue guidance to the Command
subcomponents to review and validate MoDA positions within a specified time frame.
Subsequently, Command officials review, consolidate, and forward the requested
positions to MoDA program officials who initiate recruiting, hiring, and deploying
actions. Once deployed, Command officials place MoDAs into positions for which they
were hired or reassign MoDAs to other positions to meet emerging requirements.

Command Unable to Justify Number of Positions
Command officials were unable to provide justification for the number of authorized
MoDA positions. 7 Between July 2010 and October 2011, Command’s authorized
number of positions increased from 20 to 97; however, officials could not provide
supporting documentation to justify the increase. Instead, officials stated the increase
was requested and supported by senior Command officials. In January 2012, Command
officials attempted to justify the authorized number of MoDA positions. Specifically,
Command officials stated they reviewed all 97 positions and identified positions that
were executive in nature as MoDA positions and positions that were not executive as
CEW positions. Of the 97 positions, Command officials identified 55 as MoDA
positions and 42 that could be redesignated as CEW positions. However, the attempt to
justify the number of authorized MoDA positions did not result in a redesignation of
those positions by Command officials.

In April 2012, Command officials made a second attempt to justify the 97 MoDA
positions. During this process, Command officials stated they used criteria, such as


7
    The number of positions is authorized in the Secretary of Defense Orders Book.



                                                     13
whether the position required advising an Afghan Colonel or General. Based on the
April 2012 review, Command officials stated they plan to designate 82 positions as
MoDAs and the remaining 15 positions as CEW. While we commend Command
officials for taking action, additional action is needed to formalize the process and
improve management of MoDA resources.

MoDAs Not Placed Into Advisory Positions
Command officials placed five MoDAs into positions that did not require advising
Afghan officials within the Ministries of Defense or Interior. Of the five MoDAs,

   •   Two stated they developed and provided oversight of ministerial development
       plans, that Command officials stated outline what each ministerial office must
       accomplish to be considered sustainable and ready to transition from a U.S. to an
       Afghan-led effort.

   •   One stated he provided oversight of advisory efforts to include assigning military,
       contractor, or civilian advisors to Afghan officials within a Ministry.

   •   One stated he provided oversight of a construction project unrelated to either
       Ministry.

   •   One stated he conducted oversight of anti-corruption efforts within both the
       Ministries of Defense and Interior.

Additional MoDAs reported performing other duties that affected their ability to
effectively advise their Afghan counterparts. For example, four advisors stated they
                                              performed as contracting officer
   Four advisors stated they performed as     representatives on various Afghan training
    contracting officer representatives on    and mentoring contracts, to include
   various Afghan training and mentoring      contracts for computer and English
      contracts, to include contracts for     training. Of those four advisors, two
       computer and English training.         reported advising their counterparts less
than 16 of the 150 hours worked every 2 weeks. Although developing ministerial
development plans, providing oversight of other advisory efforts and performing contract
oversight duties may contribute towards the Command’s ministerial development and
advising mission, those duties may not be within the intended purpose of the MoDA
program.

Criteria Needed to Identify and Validate MoDA Positions
or Program Benefits May Not Be Fully Realized
Command officials did not establish or use written criteria to identify new and validate
existing MoDA positions. In February 2012, DCOM-A officials developed draft criteria
defining a MoDA position. The draft criteria stated a MoDA shall: (a) be utilized as a
senior advisor to an office or function within the Ministry of Defense and supervise all
other advisory personnel within that office or function; (b) typically advise a two-star

                                            14
general officer or civilian equivalent; and (c) be primarily utilized as an advisor.
However, as of June 2012, DCOM-A officials did not finalize the criteria.

DCOM-P officials also did not use written criteria to identify new and validate existing
MoDA positions. Instead, they relied on a senior DCOM-P official to identify MoDA
positions. Until Command officials develop formal criteria, the decision on whether a
position has a need for a MoDA is at the discretion of the current official assigned to the
task. Further, MoDAs not assigned counterparts or performing primarily nonadvisory
duties will be unable to fully exchange expertise with Afghan ministry officials to
improve capacity.

On December 21, 2011, the Commander, U.S. Combined Security Transition Command-
Afghanistan, issued policy limiting the tour length of all U.S. civilian personnel to 1 year.
                                                Although the Commander may grant
   By implementing this policy, Command         extensions, the policy states that those
   officials may affect the effectiveness of    instances will be extremely rare.
  the MoDA program and limit its ability        By implementing this policy, Command
    to build long-term relationships with       officials may affect the effectiveness of the
          Afghan ministry officials.            MoDA program and limit its ability to
                                                build long-term relationships with Afghan
ministry officials. In addition, limiting MoDAs length of tours to 1 year could result in a
loss in continuity or ineffective transition among advisors, which will be even more
imperative as the U.S. military begins its drawdown efforts.

When developing written criteria for identifying and validating MoDA positions,
Command officials should coordinate with program officials to consider the amount of
time spent advising, the position of the Afghan ministry official, and the length of tour
necessary to build long-term relationships. Once established, Command officials should
use the criteria to justify the number of MoDA positions required. Command officials
should also review deployed MoDA roles and responsibilities and make the necessary
adjustments to those responsibilities or reassign the personnel to other MoDA positions.

Recommendations, Management Comments, and
Our Response
B.1. We recommend the Commander, U.S. Combined Security Transition
Command-Afghanistan, in coordination with the Ministry of Defense Advisors
Program officials, develop written criteria for identifying new and validating
existing Ministry of Defense Advisor positions. At a minimum, the criteria should
include identifying which Afghan ministry officials need advisors, the minimum
amount of time a Ministry of Defense Advisor will spend advising, and consider the
length of tour necessary to build long-term relationships.




                                             15
U.S. Combined Security Transition Command-Afghanistan
Comments
The Commander, U.S. Combined Security Transition Command-Afghanistan, partially
agreed with the recommendation. He stated the Command uses guidance provided in the
FY 2012 National Defense Authorization Act as well as Ministerial Development Plans
to establish the criteria for a MoDA. The Commander stated he did not agree that the
average amount of time an advisor spends advising the Afghan ministry official should
be included in the criteria. He stated that a MoDA’s primary role and responsibility is to
serve as an advisor to the Afghans. The Commander explained that MoDAs also spend
time preparing to advise the Afghan ministry official and serving as valuable advisors to
other mentors and coalition partners. He further stated each Afghan ministry official is
different in the amount of time they are available to spend with advisors. The
Commander stated that attempting to determine the average amount of time a MoDA
should spend advising the Afghan ministry official is not feasible nor does it provide an
accurate measurement of the advisor's success. He also stated the current Command
policy is that military and civilian personnel serve 1-year tours. There are exceptions to
the policy, which are considered on a case-by-case basis.

Our Response
Comments from the Commander, U.S. Combined Security Transition Command-
Afghanistan were partially responsive. We acknowledge that there are a number of
factors that affect the amount of time a MoDA can spend advising their Afghan
counterpart. However, the intent of the MoDA program is to build institutional and
ministerial level capacity by building long-term relationships with Afghan counterparts.
With this in mind, it is essential that the Commander, U.S. Combined Security Transition
Command-Afghanistan, establish guidelines that consider the minimum amount of time a
MoDA should be expected to spend advising Afghan ministry officials. Also, these
guidelines will assist the Commander in establishing expectations for the amount of time
MoDAs should dedicate to executing their primary role. Moreover, the time spent
advising, preparing to advise the Afghan ministry official, and serving as valuable
advisors to other mentors and coalition partners should be directly related to building
institutional and ministerial level capacity. We clarified the wording in the
recommendation and request the Commander, U.S. Combined Security Transition
Command-Afghanistan, provide additional comments to the final report.

B.2. We recommend the Commander, U.S. Combined Security Transition
Command-Afghanistan, using the criteria developed in Recommendation B.1:

       a. Validate all Ministry of Defense Advisors positions authorized and
redesignate those positions determined to not be in compliance with the criteria.

U.S. Combined Security Transition Command-Afghanistan
Comments
The Commander, U.S. Combined Security Transition Command-Afghanistan, agreed
with the recommendation. Specifically, he stated that North Atlantic Treaty Organization

                                            16
Training Mission-Afghanistan/U.S. Combined Security Transition Command-
Afghanistan initiated steps to validate all MoDA positions and redesignate those
positions that did not meet the criteria defined in the National Defense Authorization Act.
He stated Command officials met on August 8, 2012, to discuss and establish the criteria
that should be used when designating MoDA positions. The Commander stated that
based on the review and application of the criteria, the Command identified 92 Joint
Manning Document positions to be designated as MoDA positions. He stated the
92 positions recently identified will be used as the annual advisor requirements. Further,
the package is being staffed for his approval and will include impact statements for each
position. Once approved, the established requirements may be reviewed and adjusted
three times annually in accordance with the MoDAs program cycle.

Our Response
Comments from the Commander U.S. Combined Security Transition Command-
Afghanistan were responsive and no additional comments are required.

      b. Review Ministry of Defense Advisor’s duties and make the necessary
adjustments to those duties or reassign personnel to other Ministry of Defense
Advisors positions.

U.S. Combined Security Transition Command-Afghanistan
Comments
The Commander, U.S. Combined Security Transition Command-Afghanistan, agreed
with the recommendation. Specifically, he stated North Atlantic Treaty Organization
Training Mission-Afghanistan/U.S. Combined Security Transition Command-
Afghanistan reviewed all MoDA positions to ensure duties are in line with the criteria
defined in the FY 2012 National Defense Authorization Act and that MoDAs are
assigned an Afghan counterpart. The Commander stated the review revealed that some
positions would be better characterized as staff officer rather than advisor. He stated the
Command redesignated those positions as CEW and those serving under the MoDA
program in those billets have since redeployed.

Our Response
Comments from the Commander U.S. Combined Security Transition Command-
Afghanistan were responsive and no additional comments are required.




                                            17
Appendix. Scope and Methodology
We conducted this performance audit from January 2012 through August 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our audit objective, we coordinated with or interviewed officials from the
MoDA program, North Atlantic Treaty Organization Training Mission-Afghanistan/U.S.
Combined Security Transition Command-Afghanistan, and U.S. Army Central
Command. We obtained and reviewed Public Law 112-81, “Nation Defense
Authorization Act of FY 2012,” December 31, 2011; Public Law 111-352, “Government
Performance Results Modernization Act 2010,” January 4, 2011; and DoD Directive
1404.10 “Civilian Expeditionary Workforce,” January 23, 2009. We also reviewed
MoDA program draft standard operating procedures, DoD defense institution building
draft policy, program cost and budget data, deployed MoDA personnel monthly status
reports, Command requests for MoDA positions, and supporting documents for
establishing the MoDA program.

We coordinated with and interviewed officials from Command CJ1 Human Resources
Directorate, CJ38 Joint Manning Requirements Directorate, CJ5 Plans and Operations
Directorate, Security Assistance Office, DCOM-A, and DCOM-P to determine how
Command officials managed MoDA program resources and identified 97 authorized
MoDA positions. In addition, we obtained and reviewed Command draft MoDA
personnel requirements generation criteria, Command Fragmentary Orders, CJ1 Human
Resources Directorate MoDA personnel management documents, and Command Joint
Manning Documents.

As of March 2012, the MoDA program deployed 83 advisors in support of the North
Atlantic Treaty Organization Training Mission-Afghanistan/U.S. Combined Security
Transition Command-Afghanistan mission. We interviewed 28 of 57 MoDAs at Camp
Eggers, Afghanistan in January 2012. Specifically, we selected MoDAs by using data
from January 2012 monthly status reports. We divided the reports into three groups:
   •   Group 1: Individuals that reported advising 25 hours or more a week in
       January 2012;
   •   Group 2: Individuals who reported advising 24 hours or less a week in
       January 2012; and
   •   Group 3: Individuals who did not submit monthly reports or did not submit a
       number for hours worked with a counterpart in January 2012.

Our non-sample contained 27 deployed MoDAs or nine individuals from each group.
Upon request from a senior MoDA, we granted an additional interview bringing the total

                                           18
number for group 3 to 10 and total interviews to 28. We used a standard set of questions
for each interview and reviewed supporting documents.

Upon completing our initial fieldwork, we coordinated with MoDA program and
Command officials to address concerns we observed during our audit. To validate factual
accuracy, we also provided a discussion draft to DoD officials discussed in the report.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), Special Inspector General for Iraq Reconstruction,
and Inspector General for the United States Agency for International Development
(USAID) issued six reports on building ministerial capacity. Unrestricted GAO reports
can be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
can be accessed at http://www.dodig.mil/audit/reports. Unrestricted SIGIR reports can be
accessed at www.sigar.mil/audits/reports.html. Unrestricted USAID IG reports can be
accessed at www.usaid.gov/oig/public.

GAO
GAO-12-556 Audit Report, “Security Force Assistance. Additional Actions Needed to
Guide Geographic Combatant Commands and Service Effort,” May 10, 2012

GAO Audit Report-11-907, “Afghanistan Governance Performance-Data Gaps Hinder
Overall Assessment of U.S. Efforts to Build Financial Management Capacity,”
September 20, 2010

GAO-Audit Report 08-117, “Stabilizing and Rebuilding Iraq - U.S. Ministry Capacity
Development Efforts Need an Overall Integrated Strategy to Guide Efforts and Manage
Risk,” October 2007

DOD IG
SPO-2011-003, “Assessment of U.S. Government Efforts to Train, Equip, and Mentor the
Expanded Afghan National Police,” March 3, 2011

SIGIR
SIGIR Audit Report 06-045, “Status of Ministerial Capacity Development in Iraq,”
January 30, 2007

USAID IG
USAID Report No. F-306-11-001-S, “Review of USAID/Afghanistan’s Ministerial
Assessment Process,” November 6, 2010




                                           19
Deputy Assistant Secretary of Defense for Partnership
Strategy and Stability Operations Comments




                  Click to add JPEG file




                                   20
Click to add JPEG file




                 21
Click to add JPEG file




                 22
U.S. Combined Security Transition Command-Afghanistan
Comments




                 Click to add JPEG file

                                                        Enclosure not
                                                        included in report




                                  23
                         Attachment 1 is not
                         included in report




Click to add JPEG file




                 24
Click to add JPEG file




                         Attachment 2 is not
                         included in report




                 25
Click to add JPEG file




                 26
